y

No

. ZO-976

O - -

2fn Wife

Supreme Court of tje ®nttet» States?

,i

_ ,____ J

JAN 13 2021
2^§OFTHiCLERK

DAVID H. PENNY,
Petitioner,
v.
LINCOLN’S CHALLENGE ACADEMY,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Seventh Circuit

PETITION FOR WRIT OF CERTIORARI

David H. Penny
734 E 1000 N
Buckley, IL 60918
(217) 377-6575
david.h.penny65@gmail.com
Pro Se Litigant

rECWv£d
JAN 19 2021

1

QUESTIONS PRESENTED
What is the proper treatment of Pro Se litigants
nationwide who make a technical error or other mis­
take for lack of knowledge or a misunderstanding of
the law or local rules, causing a dismissal of the case
or granting of summary judgment against them with­
out their case being heard and without the opportunity
to correct the error; which equates to justice being de­
nied them whether plaintiff or defendant?
What is the equitable treatment nationwide of Pro
Se litigants in procedures addressing the disparity in
privileges in local rules between jurisdictions, for ex­
ample, discrimination between Pro Se and Social Secu­
rity or Prisoner litigants concerning local rules and
between aid given to Pro Se litigants concerning sum­
mary judgment and similar aid not given to other Pro
Se litigants within the same State or between the
States?
What is the resolution of conflicting opinions on
summary judgment between various circuit court opin­
ions as it relates to pro se litigants?
What is the proper interpretation of precedent
case law regarding the Constitutionality problems sur­
rounding Federal Civil Rule 56: summary judgment?
What is the clear and equitable standard for con­
sistency in the application of the reasonable jury
standard in Federal Rule 56?

11

QUESTIONS PRESENTED—Continued
What is the appropriate interpretation of the
Rules Enabling Act original section 2027 of the Act and
its subsequent vague revisions relating specifically to
substantive rights etc., and trial by jury being abridged
by Rule 56 summary judgment?

Ill

PARTIES TO THE PROCEEDINGS
Petitioner David H. Penny was the plaintiff in the
district court proceedings and the appellant in the
court of appeals proceedings. Respondent Lincoln’s
Challenge Academy was the defendant in the district
court proceedings and the appellee in the court of ap­
peals proceedings.
RELATED CASES
David H. Penny v. Lincoln’s Challenge Academy, No.
17-cw-2232 U.S. District Court Central District of Illi­
nois. Judgment decided 4 October, 2019
David H. Penny v. Lincoln’s Challenge Academy, No. 13168 U.S. Seventh Circuit. Judgment decided on 27
August, 2020

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.............

1

PARTIES TO THE PROCEEDINGS

111

RELATED CASES.............................

in

TABLE OF AUTHORITIES..............

vi

U.S. Constitutional Amendments

xi

Sixth Amendment.........................

xi

Seventh Amendment...................

xi

Fourteenth Amendment...............

xi

Statutes

xi

Federal Rules

Xll

Fed R. Civ. P. 56......................................................

Xll

PETITION FOR WRIT OF CERTIORARI...........

1

OPINIONS BELOW................................................

1

JURISDICTION......................................................

1

STATUTES AND CONSTITUTIONAL PROVI­
SIONS INVOLVED..............................................

1

INTRODUCTION AND STATEMENT OF THE
CASE....................................................................

3

REASONS FOR GRANTING THE PETITION...

6

I.
II.

Proper Treatment of Pro Se Nationwide....
6
Reinterpretation of Rule 56 Development
and Related Case Law................................. 11
III. Alternatives Interpretation of Case Law
and History of Rule 56................................. 17

V

TABLE OF CONTENTS—Continued
Page
IV. Unclear Method of Application of Rea­
sonability Standard..................................... 23
V. Appropriate Interpretation of Rules Ena­
bling Act section 2707.................................. 31
CONCLUSION........................................................ 38
APPENDIX
Opinion, United States Court of Appeals for the
Seventh Circuit (August 27,2020).................. App. 1
Opinion, United States District Court, Central
App. 11
District of Illinois (October 4, 2019)

VI

TABLE OF AUTHORITIES
Page
Cases, Research, and Scholarly Commentary
Anderson v. Liberty Lobby, Inc., 477 U.S. 242
(1986)..................................................................

8

Alschuler, A. W., & Deiss, A. G. (1994). A brief
history of the criminal jury in the United
States. The University of Chicago Law Review,
61(3), 867-928....................................................

23

Bornstein, B. H., Golding, J. M., Neuschatz, J.,
Kimbrough, C., Reed, K., Magyarics, C., &
Luecht, K. (2017). Mock juror sampling issues
in jury simulation research: A meta-analysis.
Law and Human Behavior, 41(1), 13-28..........

27

Bronsteen, J. (2006). Against Summary Judg­
ment. Geo. Wash. L. Rev., 75, 522......................

20

Burbank, Stephen B., (1982) “The Rules Ena­
bling Act of 1934”. Faculty Scholarship. Paper
1396....................................................................

35

Burbank, S. B. (2004). Vanishing Trials and
Summary Judgment in Federal Civil Cases:
Drifting Toward Bethlehem or Gomorrah?.
Journal of Empirical Legal Studies, 1(3), 591626......................................................................

18

Carrington, P. D. (1989). Substance and Proce­
dure in the Rules Enabling Act. Duke LJ, 281.

35

Clark, C. E., & Samenow, C. U. (1928). The Sum­
mary Judgement. Yale LJ, 38, 423....................

12

Coates v. Dalton, 927 F. Supp. 169 (E.D. Pa.
1996)...................................................................

30

Vll

TABLE OF AUTHORITIES—Continued
Page
De Tocqueville, A. (1835). Democracy in America.
New York: A Mentor Book from New American
Library................................................................

28

Devine, D. J., Clayton, L. D., Dunford, B. B.,
Seying, R., & Pryce, J. (2001). Jury decision
making: 45 years of empirical research on de­
liberating groups. Psychology, public policy,
and law, 7(3), 622............................................... 26, 27
Eisenberg, T., Hannaford-Agor, P. L., Hans, V. P,
Waters, N. L., Munsterman, G. T., Schwab,
S. J., & Wells, M. T. (2005). Judge-jury agree­
ment in criminal cases: A partial replication of
Kalven and ZeiseVs The American Jury. Jour­
nal of Empirical Legal Studies, 2(1), 171-207..

26

Fidelity & Deposit Co. v. United States, 187 U.S.
315 (1902)
passim
Georgia v. Brailsford, 3 U.S. 1, 1 L. Ed. 483, 3
L. Ed. 2d 914 (1794)..........................................

17

Green, E. K. (2016). Culture conflict between
moonshiners and the government: An explana­
tion ofjury nullification and Nolle Prosequi in
illicit alcohol offenses in rural communities....

28

Gundy v. US, 139 S. Ct. 2116, 588 U.S., 204
L. Ed. 2d 522 (2019)..........................................

33

Haramati, I (2009) Procedural History: The De­
velopment of Summary Judgment as Rule 56.
New York University Journal ofLaw & Liberty
[Vol. 5:173]..........................................................

18

Vlll

TABLE OF AUTHORITIES—Continued
Page
Heyman v. Commerce & Indus. Ins. Co., 524 F.2d
1317 (2d Cir. 1975)............................................ 14, 36
Herzberg, A. (2015). The Right of Trial by Jury
Shall be Preserved: Limiting the Appealability
of Summary Judgment Orders Denying Qual­
ified Immunity. U. Pa. J. Const. L.....................

21

Hornby, D. B. (2010). Summary Judgment With­
out Illusions. Republished with permission
from, 13............................................................... 19, 20
Janus v. American Federation of State 2018....... 16,17
Jefferson v. Sewon America, Inc., 891 F.3d 911Court of Appeals, Eleventh Circuit 2018........ 14, 37
Jefferson v. Sewon, Amicus Curiae brief submit­
ted by Dr. Suja Thomas.....................................

25

Kent v. Dulles, 357 U.S. 116 (1958).......................

36

Kahan, D. M., Hoffman, D. A., & Braman, D.
(2008). Whose Eyes are You Going to BelieveScott v. Harris and the Perils of Cognitive IIliberalism. Harv. L. Rev., 122, 837....................

26

Lewis v. Faulkner, et al., 89 F.2d 100 (1982)
United States Court of Appeals, Seventh Cir­
cuit ...................................................................... 7,10
Louis, M. B. (1974). Federal Summary Judgment
Doctrine: A Critical Analysis. The Yale Law
Journal, 83(4), 745-769
referenced not cited
Marshall v. Knight, et al., 445 F.3d 965 (7th Cir.
2006)................................................................... 7, 30

IX

TABLE OF AUTHORITIES—Continued
Page
Maty v. Grasselli Chemical Co., 303 U.S. 197, 58
S. Ct. 507, 82 L. Ed. 745 (1938)........................ 9,10
McCannon, B. C., (2011). Jury Size in Classical
Athens: An Application of the Condorcet Jury
Theorem. Kyklos, 64(1), 106-121. https://doi-org.
ezp.waldenulibrary.org/10.1111/j.1467-6435.2010.
00497.x Business source complete 2 Dec 2018

24

McCannon, B., & Walker, P., (2016). Endogenous
competence and a limit to the Condorcet Theo­
rem. Public Choice, 169(1/2), 1-18. Business
source complete 2 Dec. 2018.............................

24

Meier, L. (2014). Probability, Confidence, and the
Reasonable Jury Standard. Miss. LJ, 84, 747..

27

Merila v. Johnson, 52 F.3d 338 (10th Cir. 1995)..

9

O’Sullivan, E., Berner, M., Taliaferro, J. D., &
Rassel, G. R. (2016). Research methods for
public administrators.......................................

26

Parklane Hosiery Co. v. Shore, 439 U.S. 322
13,14,15,16, 37
(1979)
Pfautz, M. W. (2015). What Would a Reasonable
Jury Do-Jury Verdicts following Summary
Judgment Reversals. Colum. L. Rev., 115,
1255....................................................................

25

Picking v. Pennsylvania R. Co., 151 F.2d 240 (3d
Cir 1945)............................................................

9

X

TABLE OF AUTHORITIES—Continued
Page
Redish, M. H., & Amuluru, U. M. (2005). The
Supreme Court, the Rules Enabling Act, and
the Politicization of the Federal Rules: Consti­
tutional and Statutory Implications. Minn. L.
Referenced not cited
Rev., 90,1303
Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133, 120 S. Ct. 2097, 147 L. Ed. 2d
105 (2000)...........................................................

10

Reiser, C. M. (2009). The Unconstitutional Appli­
cation of Summary Judgment in Factually In­
tensive Inquiries. U. Pa. J. Const. L., 12,195....

21

Salazar-Limon v. City of Houston Denied Writ of
Certiorari concurring opinion Justice Alito
23
(2017)..................................................................
Schwarzer, W. W., Hirsch, A., & Barrans, D. J.
(1991). The Analysis and Decision of Sum­
mary Judgment Motions: A Monograph on
Rule 56 of the Federal Rules of Civil Proce­
11,13,14,16, 21
dure. Federal Judicial Center
Schofield, N. (2005). The intellectual contribu­
tion ofCondorcet to the founding of the US Re­
public 1785-1800. Social Choice & Welfare,
25(2/3), 303-318.................................................

24

Sessions v. Dimaya, 138 S. Ct. 1204,584 U.S.__ ,
200 L. Ed. 2d 549 (2018)...................................

33

Smoot v. Rittenhouse, decided January 10,
passim
(1878)
Thayer, J. B. (1890). “Law and Fact” in Jury Tri­
als. Harvard Law Review, 147-175..................

17

XI

TABLE OF AUTHORITIES—Continued
Page
Thomas, S. A. (2007). Why Summary Judgment
Is Unconstitutional. Virginia Law Review,
93(1), 139-180.................................................... 22,32
Thomas, S. A. (2007). The Unconstitutionality of
Summary Judgment: A Status Report. Iowa L.
Rev., 93,1613..................................................... 22,33
Thomas, S. A. (2014). Summary Judgment and
the Reasonable Jury Standard: A Proxy for a
Judge’s Own View of the Sufficiency of the Ev­
idence. Judicature, 97, 222................................ 25,26
Thomas, S. A. (2018). Reforming the Summary
Judgment Problem: The Consensus Require­
ment. Fordham L. Rev., 86, 2241....................... 24, 25
United States v. Robel, 389 U.S. 258, 269 (1967).

34

Van Dyke, J. M. (2017). The Jury as a Political
Institution. The Catholic Lawyer, 16(3), 5......

28

Wood, Diane P Summary Judgment and the
Law of Unintended Consequences....................

19

U.S. Constitutional Amendments
Sixth Amendment.........................

1,22,31

Seventh Amendment....................

..... passim

Fourteenth Amendment...............

2,9,17,31

Statutes
Public Law 100-702-NOV-19, 1988, Title IV
passim
Rules Enabling Act

Xll

TABLE OF AUTHORITIES—Continued
Page
Federal Rules
Fed R. Civ. P. 56

passim

1
PETITION FOR WRIT OF CERTIORARI
David Harold Penny petitions for a writ of certio­
rari to review the judgment of the United States Court
of Appeals for the Seventh Circuit.

OPINIONS BELOW
The Seventh Circuit's opinion, Penny v. Lincoln's
Challenge Academy, No. 19-3186, is at App. 1-10. The
opinion of the Central District Court of Illinois, No. 17cv-2232, is at App. 11-22.

JURISDICTION
The Court of Appeals entered judgment on August
27,2020. This Court extended filing time past the com­
mon 90 days to 120 days. This Court has jurisdiction
under 28 U.S.C. § 1254(1).

STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
Sixth Amendment U.S. Constitution: In all crim­
inal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been
committed; which district shall have been previously
ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for

2

obtaining witnesses in his favor, and to have the assis­
tance of counsel for his defense.
Seventh Amendment U.S. Constitution: In Suits
at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved, and no fact tried by a jury, shall be other­
wise re-examined in any Court of the United States,
than according to the rules of the common law.
Fourteenth Amendment Section 1 U.S. Consti­
tution: All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are citi­
zens of the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any per­
son of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.
TITLE IV—RULES ENABLING ACT
SEC. 401. RULES ENABLING ACT AMEND­
MENTS.
(a) IN GENERAL.—Chapter 131 is amended by
striking out section 2072 and inserting in lieu thereof
the following:
“§ 2072. Rules of procedure and evidence;
power to prescribe
“(a) The Supreme Court shall have the
power to prescribe general rules of practice

3

and procedure and rules of evidence for cases
in the United States district courts (including
proceedings before magistrates thereof) and
courts of appeals.
“(b) Such rules shall not abridge, enlarge or
modify any substantive right. All laws in con­
flict with such rules shall be of no further force
or effect after such rules have taken effect.
Federal Rule 56.
a)

Motion for Summary Judgment or Partial
Summary Judgment. A party may move
for summary judgment, identifying each
claim or defense—or the part of each
claim or defense—on which summary
judgment is sought. The court shall grant
summary judgment if the movant shows
that there is no genuine dispute as to any
material fact and the movant is entitled
to judgment as a matter of law. The court
should state on the record the reasons for
granting or denying the motion.

INTRODUCTION AND
STATEMENT OF THE CASE
In 2015, after 12 years of employment without
problems and rising in the ranks from floor staff to
Commandant (Cadre Department head) of the Acad­
emy in 2014, then within weeks achieving the first
passing grade for the department on inspection from

4
National Guard Bureau in years, Penny opposed an act
of discrimination by the Director and Deputy Director.
He disagreed with the firing of a member of his depart­
ment because of his physical disabilities. The employee
was fired anyway and told fictitious reasons why. After
an unexpected encounter with the employee after the
fact, Penny wrote a memo about the encounter. Penny
was then contacted by the State Personnel manager
and HR manager and threatened to take the memo on
the encounter with the employee out of my file because
it could hurt them if investigated. Fearing job loss
Penny pulled the memo and waited for an investigator
to interview him since a complaint was filed. The case
closed with no one interviewing Mr. Penny about the
employee’s termination.
Penny opposed the Director and Deputy Director’s
desire to terminate one of his staff illegally for discrim­
inatory purposes in May 2015. Terminations took place
in June. All of the people who were terminated by the
Director agreeing with Commandant Penny’s recom­
mendations based on policy infractions documentation
were offered their jobs back in August, except the one
person Penny opposed terminating. Then came the late
August encounter with the wrongfully terminated em­
ployee in a parking lot. Penny wrote a memo docu­
menting the encounter during the investigation the
employee said was taking place. Shortly after, State
Personnel Manager, with HR manager present, coerced
Penny to rescind the memo fearing possible job loss
because “If an investigator saw it might be bad”. My
intent with the memo was to attract an investigator’s

5
attention so I could tell them the whole story about the
discriminatory termination. By mid-August, one of the
employees allowed to come back began making com­
plaints against Penny, which complaints continued
about every ten days for months until the holiday
break. These were the beginning of a series of welldocumented events of retaliatory actions such as being
sent home on a work comp injury until 100% healed
and several EEO complaints (all determined un­
founded) other harassments designed to get me to quit
the company. I was never contacted, and the case
closed.
Then during the holiday break, the Director and
Deputy coerced me into leaving off being Commandant
of the Academy and taking a lower prestige position.
As head of a different department, I discovered further
illegal activity. All illegal activity and harassments are
documented in almost 40 memos for the record, phone
records (Plaintiffs only as Defense contested said the
government could not locate theirs), company records,
internal emails, inconsistent employment counseling’s,
performance reviews, and shifting performance stan­
dards (all given to Defense during discovery); paving a
clear trail to the eventual wrongful retaliatory termi­
nation of Penny in 2017, under pretense of not meeting
performance standards. Standards that were known to
be unreachable as company records proved and which
did not apply to Penny’s predecessors or successors in
the same position. Penny obtained a right to sue from
EEOC. Penny then proceeded In Forma Pauperis Pro

6

Se. Penny had three attempts to submit the complaint
successfully or be dismissed with prejudice.
The third attempt succeeded, then Penny found
himself facing summary judgment, researching it to
figure out what it was, and then what to do about it.
On his first attempt, Penny was surprised that his re­
sponse to the motion for summary judgment, which
included the unconstitutionality of it and not just the
disputed facts, failed on a procedural error (I down­
loaded and unknowingly used an outdated set of local
rules), which Penny was not afforded even one oppor­
tunity to rectify. Not understanding how to adequately
analyze legally and address the issues, Penny under­
standably missed the mark as outlined in the Circuit
opinion on his appeal in 2020.

REASONS FOR GRANTING THE PETITION
I.

Proper Treatment of Pro Se Nationwide

Rare is the situation a person would go pro se. It
is intimidating having to go it alone and learn as you
go, attempting to negotiate a maze of rules you are not
trained in, like traveling without a map, and with no
means to hire a lawyer or guide, so to speak, to get you
to your intended destination of trial. Upon considering
all I experienced, trying to exercise my Constitutional
right to a jury trial. I realized that many of the chal­
lenges I encountered are common to pro se nationwide.
Challenges this Court can remedy. Every pro se liti­
gant should have some similar standard of notice of

7

requirements given to them with short examples of
briefs and explanations, especially where summary
judgment is concerned, for example, a packet sent to a
pro se and or a website link to access the correct and
most up to date local rules. Every pro se litigant should
be allowed to correct any procedure or evidence presen­
tation mistakes before a final judgment is made.
In Marshall v. Knight et al., 2005, there is a “spe­
cial responsibility to construe pro se complaints liber­
ally and to allow ample opportunity for amending the
complaint”; which was afforded me in my complaint
process. However, Marshall continues stating the im­
portance of adjudicating “pro se claims on the merits,
rather than to order their dismissal on technical
grounds.” What is the point of giving pro se latitude
and opportunity to file a competent complaint only to
later disregard their brief on a technicality and grant
summary judgment against them without even one
opportunity to correct the procedural error, such as in
my case; which I am confident I am not the only pro se
this has ever happened to? Pro se should have the
same latitude in filing briefs as in filing complaints.
I agree with the 7th Circuit in Lewis 1982 that
without legal training, it is obvious you must present
evidence of your argument or lose. What is not obvious
is that summary judgment is a bench trial with one
person deciding your case and that evidence and inter­
pretation of the facts of your case as if in a jury trial,
and it must be submitted the first time correctly, or you
forfeit your Constitutional right to a jury trial. Nor is
it obvious how to prove or demonstrate a disputed fact,

8

which is interesting since judges are not supposed to
be interpreters of credulity or be fact-finders; Anderson
v. Liberty Lobby, I. Moreover, it is not obvious you have
to cite from the source not just include them in the ap­
pendices where you assume they will be read, or even
what selection of an abundance of evidence is best
suited for the snap shot of your case within the size
limitations of brief and not key witness testimony to
present, especially when a pro se most likely does not
have the resources to obtain a deposition or that he/she
may or may not need one, if they even know what one
is, to begin with. Further, proof pro se need a little more
assistance with standard resources being provided for
them to have the best chance to succeed in with their
complaint.
I understand my honest mistake reading from the
wrong local rules; however, learning after the fact
doesn’t allow you to fix it, but an opportunity should be
afforded the pro se. Had the Central District court of
Illinois afforded the same privilege of resources for pro
se as the Northern District court of Illinois, this may
all have been avoided. The Northern District has an
explanation of summary judgment to aid the pro se in­
dividuals. The Central District used to exempt pro se
for some procedures, and now they only exempt social
security litigants. With these differences between just
two District courts in the same State, how many are
the differences between all the states in how they help,
hinder, or handle pro se litigants. Courts need better
guidance on handling pro se persons, so all pro se
have the same or very similar helps, resources, and

9
opportunity to correct errors as in Merila’s affidavit
situation, nationwide.” On appeal, plaintiff argues the
district court should have advised him that his affida­
vit did not conform to the requirements of Fed. R. Civ.
R 56(e), and given him the opportunity to resubmit his
affidavit in the proper form. We agree” Merila v. John­
son, 52 F.3d 338 (10th Cir. 1995). The disparity in re­
sources for and treatment of pro se throughout the
nation may be a Fourteenth Amendment violation.
As the Seventh Circuit in their order stated pro se
must adhere to local rules. This conflicts with Picking
v. Pennsylvania Railway (1945) where the Third Cir­
cuit found in a pro se case: “The plaintiff’s civil rights
pleading was 150 pages and described by a federal
judge as “inept”. Nevertheless, it was held “Where a
plaintiff pleads pro se in a suit for protection of civil
rights, the Court should endeavor to construe Plain­
tiff’s Pleadings without regard to technicalities.” My
error in procedure was a technicality Penny v. Lincoln’s
Challenge Academy 2019 District Judge opinion.
In another pro se case, Maty v. Grasselli (1938), the
Court found “Pleadings are intended to serve as a
means of arriving at fair and just settlements of con­
troversies between litigants. They should not raise
barriers that prevent the achievement of that end.
Proper pleading is important, but its importance con­
sists in its effectiveness as a means to accomplish the
end of a just judgment.” How are these separate ways
of dealing with pro se litigants equitable between these
jurisdictions? My case is based upon the witness’ nar­
ratives’ credibility, and competing interpretations of

10
more than fifty or so pieces of documented evidence.
Evidence and competing narrative interpretations a
jury should rightfully deliberate.
In Reeves v. Sanderson (2000), proving defense em­
ployer’s explanation is not credible, and proving they
are intentionally covering up their true discriminatory
reason for the firing of the plaintiff is ‘In appropriate
circumstances, the trier of fact can reasonably infer
from the falsity of the explanation that the employer is
dissembling to cover up a discriminatory purpose.
Such an inference is consistent with the general prin­
ciple of evidence law that the factfinder is entitled to
consider a party’s dishonesty about a material fact as
“affirmative evidence of guilt.” Wright v. West, 505 U.S.
277, 296 (1992) see also Wilson v. United States, 162
U.S. 613,620-621 (1896). My error was procedural and
not being allowed to correct it is an unacceptable bar­
rier, according to Maty.
In Lewis, the Seventh Circuit found that because
prisoners usually don’t have legal training, specific no­
tice should have been given concerning his situation
and the summary judgment he faced. How is a pro se
non-prisoner any more apt to be trained in the law
than a prisoner? Had I been given direction to the most
updated local rules, I could have avoided a primary
barrier to surviving the gauntlet of summary judg­
ment. How many pro se throughout the country would
benefit from similar aids. This speaks to issues be­
tween pro se prisoners versus non-prisoners and be­
tween a pro se litigant and a social security litigant
who, under local rules of the Central District Court of

11
Illinois, still enjoy latitude in following procedure with­
out having to show good cause, for unknown reasons.
II.

Reinterpretation of Rule 56 Development
and Related Case Law

Historically American summary judgment stat­
utes started in the early 1800’s. “Like the English rule,
these early statutes were limited to plaintiffs’ claims
and generally to transactions susceptible to documen­
tary proof. . . Many judges viewed summary judgment
as a drastic remedy to be used only sparingly, presag­
ing the debate decades later under the more expansive
text of Rule 56” (Schwarzer et al., 1991 pi). In 1902
Fidelity, the lawyer made key points on the Constitu­
tionality of rule 73, which were not considered:
a.

The rule is “inconsistent” with the com­
mon-law principle governing the burden
of proof. Reeves v. Low, 8 App. D. C. v. Sol­
omon, 11 App. D. C. 175

b.

Trial by jury, as it existed at the common
law,” is not “preserved” under a “rule de­
priving a party, under certain conditions,
of his right to a trial by jury in the regular
mode of the common law.” Gleason v.
Hocke, 5 App. D. C. 5. The common-law
system of pleading is in force in the Dis­
trict, binding alike upon this court and
the inferior courts, in the absence of stat­
utory provisions changing that law. Ma­
rine Ins. Co. v. Hodgson, 6 Cranch, 219, 3
L. Ed. 204

12
c.

The rule is inconsistent with the laws of
the United States, because it impairs de­
fendant’s right to “due process of law”
Hovey v. Elliott, 167 U.S. 409, 42 L. Ed.
215,17 Sup. Ct. Rep. 841.

d.

The rule is inconsistent with such laws,
because it impairs defendant’s right to
“trial by jury” in cases within the 7th
Amendment, and authorizes summary
judgment against him in such cases with­
out such trial. Barney v. Schmeider, 9
Wall. 248,19 L. Ed. 648

However, the Fidelity Court stated the only con­
tention was the right to a jury trial and that they did
not deem it necessary to consider or ‘follow’ the defense
lawyers’ arguments. Then they wrongfully affirmed
the validity of the rule. The history of summary judg­
ment has been under scrutiny for over a hundred
years, continuing today, as do many lower courts rub­
ber-stamping it, being ignorant of its jaded past and
present having trusted these past judges and justices
who disregarded express points that demonstrated the
unconstitutionality of summary judgment.
Fast forward to when Clark and Samenow write a
seminal piece on expanding summary judgment to re­
lieve congestion on the dockets (Clark & Samenow,
1928). They neglect to mention that inconvenience and
cost are part of due process using these inconveniences
as an excuse to push their version of summary judg­
ment. Furthermore, Clark and Samenow expect sum­
mary judgment to expand in scope. In 1938 their

13
expectation became a prophetic truth when Clark, a
primary architect of the Federal Rules of Civil Pro­
cedure, penned Rule 56, establishing “a summary
judgment procedure far more advanced than the
one approved by the Supreme Court in Fidelity”
(Schwarzer et al., p2). Clark’s advancement is a de
facto gatekeeping qualifier undermining and barring
the legitimate exercise of the Constitutional right to
a jury trial, a far cry from the Rules that Smoot and
Fidelity were decided under, rendering Smoot and Fi­
delity unacceptable as precedent case law. Parklane
Hosiery now stands alone as a faulty precedent under­
girding the gatekeeping new Rule 56.
A review of the reported decisions in the first few
years following the adoption of Rule 56 shows that
while the rule was frequently invoked, little was said
about its purpose, meaning, or application, much less
its validity. Five years after Rule 56 was enacted, Judge
Clark wrote about the difference in judges’ use of the
rule. Clark said lithe courts have been, if anything, over
hesitant in granting the relief. The hesitancy to grant
summary judgment was largely attributable to an in­
stitutional concern with preserving parties’ rights.
(Schwarzer et al., 1991, p3)
In 1940, an early Fifth Circuit opinion cautioned
against using summary judgment as a catchpenny con­
trivance to take unwary litigants into its toils and de­
prive them of a trial.” Whitaker v. Coleman, 115 F.2d
305, 307 (5th Cir. 1940). (Schwarzer et al., 1991)

14
In 1946, the Tenth Circuit warned that “[t]he
power to pierce the flimsy and transparent factual veil
should be temperately and cautiously used lest abuse
reap nullification.” Avrick v. Rockmont Envelope Co.,
155 F.2d 568, 571 (10th Cir. 1946) (Schwarzer et al.,
1991).
In 1975, the Second Circuit remarked that sum­
mary judgment “is a drastic device since its prophylac­
tic function, when exercised, cuts off a party’s right to
present his case to the jury” Heyman v. Commerce &.
Indus. Ins. Co., 524 F.2d 1317,1320 (2d Cir. 1975). (Ju­
dicial, I. The Analysis and Decision of Summary Judg­
ment Motions, A monograph, 1992, chapter 1 pages 13.) The Second Circuit Court admits and reveals the
Unconstitutional foundation of Summary Judgment.
(Schwarzer et al., 1991)
In 2018, the Eleventh Circuit in Jefferson relying
on Parklane (1979), which relies on Fidelity (1902),
which relies on Smoot (1878), erroneously ruled sum­
mary judgment is Constitutional. The Eleventh Circuit
is in error with their assertion a previous Supreme
Court ruled Summary judgment is Constitutional
stating “Supreme Court made clear long ago that
“summary judgment does not violate the Seventh
Amendment” quoting Parklane which was citing Fidel­
ity. This is not a logical trail to Rule 56 written after
the Rules Enabling Act of 1934. There is no legal prec­
edent or link between Parklane-Fidelity!Smoot as the
circumstances and narrow scope of rule 75 are contex­
tually and legally separate from Parklane. Parklane
stands alone and should have been examined on its

15
own, not being under the same authority, rule, or situ­
ation as Fidelity/Smoot. Therefore, the claim that Rule
56 expansion of Summary Judgment is unconstitu­
tional stands regardless of Smoot/Fidelity’s Constitu­
tionality under Rule 75.
Justice Rehnquist’s dissent in Parklane correctly
recounts the history of trial by jury in the eyes of the
Founders who “considered the right of trial by jury in
civil cases an important bulwark against tyranny and
corruption, a safeguard too precious to be left to the
whim of the sovereign, or, it might be added, to that of
the judiciary.” Justice Rehnquist goes on to state the
court’s decision in Parklane effectively circumvents the
right to a trial by jury.
‘Those who favored juries believed that a jury
would reach a result that a judge either could not or
would not reach. It is with these values that underlie
the Seventh Amendment in mind that the Court
should, but does not, approach the decision of this case
. . . developments in the judge-made doctrine of collat­
eral estoppel, however salutary, cannot, consistent
with the Seventh Amendment, contract in any mate­
rial fashion the right to a jury trial that a defendant
would have enjoyed in 1791. In the instant case, re­
sort to the doctrine of collateral estoppel does more than
merely contract the right to a jury trial: It eliminates
the right entirely and therefore contravenes the
Seventh Amendment.’ (Justice Rehnquist’s Dissent­
ing opinion in Parklane Hosiery, 1979, emphasis
added)

16
Both Smoot and Fidelity dealt with simple con­
tractual agreements that had they gone to court, a jury
obviously would have determined the same as the
judge because there was no dispute of the material
facts of these two contract cases. Therefore, there was
no blatant or discovered violation of the right to a trial.
Whereas in the present case, the complexities and nu­
ances of the employment retaliation and discrimina­
tion issues at hand. (Schwarzer et al., 1991)
Stare decisis may be engaged in only one legiti­
mate way, that it is now discovered there is no prece­
dent as Parklane should have stood alone. Therefore,
Justice Rehnquist’s dissent is correct and the majority
incorrect; the Seventh Amendment right to trial is un­
constitutionally eliminated and controlled by a gatekeeping Federal Rule. A Rule more powerful than an
Amendment, being able to usurp a citizen’s right to a
jury trial; therefore, the Parklane precedent must be
overturned, and Rule 56 stricken from civil procedure,
and this present case sent back to the Central District
Court of Illinois for trial. In the opinion of the Court by
Justice Alito Janus v. American Federation of State
2018, the importance and proper place of Stare decisis
is reinforced, as is the criteria for not following it for it
is “‘not an inexorable command.’ Pearson u. Callahan,
555 U.S. 223, 233 (2009)”. Furthermore, Justice Alito
goes on to say about Stare Decisis doctrine that it “is
at its weakest when we interpret the Constitution be­
cause our interpretation can be altered only by consti­
tutional amendment or by overruling our prior
decisions.” (Janus).

17
Justice Alito continues: “And stare decisis applies
with perhaps least force of all to decisions that wrongly
denied First Amendment rights: “This Court has not
hesitated to overrule decisions offensive to the First
Amendment (a fixed star in our constitutional constel­
lation, if there is one).” Federal Election Comm’n v. Wis­
consin Right to Life, Inc., 551 U.S. 449, 500 (2007)
(Scalia, J., concurring in part and concurring in judg­
ment) Quoting from the Supreme Court Opinion in
Janus v. American Federation of State, 138 S. Ct. 2448,
585 U.S.
., 201 L. Ed. 2d 924 (2018). I submit to this
Court that the 5th, 7th, and 14th Amendments on the
right to a trial by jury, due process, and equal privi­
leges, and protections among other rights are no less
binding, no less a right of a citizen, and no less nonnegotiable fixed stars in the Constitutional constella­
tion than the 1st Amendment.
III. Alternatives Interpretation of Case Law and
History of Rule 56
This is a sampling of the key legal commentary
continuing to highlight Constitutional problems with
summary judgment. The first Chief Justice of the
United States Supreme Court clarified the roles of a
judge and jury in Georgia v. Brailsford (1794). In his
instructions to the jury before the Court, he told the
jury, “You have, nevertheless, a right to take upon your­
selves to judge of both, and to determine the law as
well as the fact in controversy.” Even though jurors can
judge law and facts, judges should only be judging the
law. (Thayer, 1890)

18
Clark and Samenow did not agree on how to write
the rule on summary judgment. Samenow wanted sep­
arate rules, while Clark did not. Clark won out writing
rule 56 in the manner he wanted as a “general phrase”
usable in a broad sense, in many situations (Haramati,
2009). Clark is not the only voice in the creation of Rule
56; another man Sunderland, weighs in as well with
the discussions of the advisory committee on making
of these federal rules (Burbank, 2004). Burbank also
documents the deep concerns about undermining the
right to trial by jury'and that Sunderland, Clark, and
many members of the advisory committee had a dis­
dain for juries. According to Burbank, Clark also wrote
the memorandum to the advisory committee opposing
a rule that would prohibit summary judgments until
after pleadings were filed, which was under considera­
tion. In the end summary judgment was sold as “The
chief value of the summary procedure is as a simple
and quick way of disposing of routine matters. Typi­
cally, these are cases of debts or liquidated demands”
(Burbank, 2004). I ask the Justices to reflect upon how
far away from dealing with exclusively debts, as in
Smoot and Fidelity, and have evolved into using sum­
mary judgments in complex cases all but routine. And
now manifesting the fears by some original board
members of the threat to trial by jury.
“Summary judgments, after all, are re­
viewed de novo, and if the appellate court
finds that the trial judge slid too quickly
over disputed issues of material fact, back
the case goes to the district court. Findings
of fact by a jury are sacrosanct under the

19
Seventh Amendment; evidentiary rulings and
jury instructions given at trial are reviewed
deferentially; and if the trial is to the court,
the findings of fact can be overturned only if
they were clearly erroneous.” (Wood, 2011).
The following quotes, with my emphasis added,
are from Summary Judgment Without Illusions by
District Judge Hornby.
The term summary judgment creates false expec­
tations. Summary judgment does not save lawyer time.
It does not save legal fees. It does not significantly re­
duce court time or trials. Hornby Page 2
For pro se claims, the effect of summary judg­
ment motions is dramatic. At trials, parties without
lawyers can at least testify. Win or lose, they air their
complaints publicly (subject to evidentiary rule hur­
dles) and receive a determination of their claims’ mer­
its. Not so when defendants file summary judgment
motions. Hornby Page 8
Some academics say the Seventh Amendment
makes summary judgment unconstitutional. Only the
Supreme Court can resolve that challenge . . . There is
some academic and empirical support for their griev­
ances about how it is administered. But unless ruled
unconstitutional, the defense bar and interests they
represent will continue to support it strongly, for rea­
sons I have mentioned. Hornby Page 9
Still, just because summary judgment did not pro­
voke reversal in a similar case when appellate judges
found no issue of material fact, that does not

20

necessarily mean that the trial judge must grant sum­
mary judgment in this case. The point is particularly
pertinent in employment discrimination cases, where
the critical issue—inference of discriminatory intent—
is so fact-intensive. Judges should be slow to take in­
ference questions away from juries, even when col­
leagues are affirmed in doing so. Hornby Page 15
Lastly, from Judge Hornby; Fourth, there is no
constitutional right to summary judgment, but
there is to jury trial. Federal judges should not be
reluctant to send parties to trial. And so I say: when in
doubt whether facts or inferences (not law) support
summary judgment, judges should “just say no,” and
let the case proceed to trial or settlement. Hornby Page
15
In my limited pro se experience if I was paying a
lawyer, it seems obvious that when considering the ap­
parent intended purpose of streamlining dockets;
Summary judgments are inefficient, costly in time and
money, and contravene due process and creates more
labor and higher costs for litigants and courts.
“Without knowing whether an increase in law­
suits would be good or bad, it would be unreasonable
to deem it a virtue that summary judgment might re­
duce the number of cases filed. Indeed, summary judg­
ment appears to be a rather arbitrary advantage
bestowed on the defendant tipping the scales for no
clear reason” (Bronsteen, 2006).
Justice Stevens dissenting in Scott v. Harris also
added that the Court “usurped the jury’s fact-finding

21
function” and explained that, “If two groups of judges
can disagree so vehemently about the nature of the
pursuit and the circumstances surrounding that pur­
suit, it seems eminently likely that a reasonable juror
could disagree with this Court’s characterization of
events.” (Herzberg, 2015).
“While neatly defined and easy to State, summary
judgment is fundamentally prone to distortion because
it is ultimately a legal conclusion about a set of facts.
This is particularly true in factually driven inquiries
where judges must determine whether a jury could
“reasonably” find a particular party’s behavior “unrea­
sonable” (or the like) (Reiser, 2009).
However, in 1938 Rule 75 was replaced (Schwarzer
et al.) by a drastically recreated and expanded version,
which encompassed all litigation in the form of Rule
56. This new version nullifies Smoot and Fidelity’s ap­
plicability to Parklane and the previous ruling of sum­
mary judgment not violating the Seventh Amendment.
Rule 56 has yet to be judicially reviewed as having to
stand alone. This further undermines its validity and
Constitutionality in my present case, as with many
employment cases, it is very seldom cut and dry,
such as was the case in Smoot and Fidelity cases.
(Schwarzer et al.)
Within a couple of years of post, her initial article
on the unconstitutionality of summary judgment Dr.
Thomas found, “Some federal judges have spoken and
written against the use of summary judgment in fact­
intensive cases like employment discrimination cases,”

22

which is the present case of Mr. Penny. She gives a con­
cerning example of the liberal use of summary judg­
ment.
As an example, Judge Nancy Gertner is re­
ported to have stated that summary judgment
is the procedure of choice (emphasis added)
when it should be just the opposite in employ­
ment discrimination cases.” Thus, Supreme
Court jurisprudence on judgment notwith­
standing the verdict and the directed verdict
could be considered inapposite for that reason
alone. Moreover, the earlier decision by the
Court in Slocum v. New York Life Insurance
Co., 58 in which the Court'found judgment
notwithstanding the vepdict unconstitutional,
supports the arguna^t that/summary judg­
ment is unconsl#^$nal. Thomas, 2007,
Iowa Law Revie^B^ V
Dr. Thomas, in
Having recently taken renewed interest in
the proper role of the jury under the Sixth
Amendment, it would be fitting for the Court
to examine this issue in the context of the Sev­
enth Amendment. In the last seven years, in
interpreting the Sixth Amendment, the Court
has given power back to the criminal jury, em­
phasizing the historical role of the jury. In
comparison, the text of the Seventh Amend­
ment, which requires the court to follow the
“common law,” dictates an even more signifi­
cant role for history in the preservation of the
right to a civil jury trial under the Seventh
Amendment. (Thomas, 2007, Virginia LR).

/'
S

y
/

•V-i

23

IV. Unclear Method of Application of Reasona­
bility Standard
There are several issues with the reasonableness
standard. It assumes judges, being experts in law, are
individually better-equipped decision-makers than a
jury. It assumes judges’ decisions would always be in
agreement with a jury randomly chosen in every trial.
Judging reasonableness is unreasonable; that any one
person can prognosticate the future in determining
the probable outcome of a verdict from a jury, com­
prised of unknown people, of unknown diversity in
values and perspectives. It assumes that if a jury
reached an outcome, not in line with a judge’s opinion,
it is automatically unreasonable as if to say the judge
is sovereign and right. This faulty reasoning has been
problematic as outlined in the Declaration of Inde­
pendence and other early works concerning trial by
jury.
The reasonableness standard neglects the fact
that judges are often in disagreement with each other
and with juries. The standard ignores the subjective­
ness of any judge’s opinions of whether a verdict is
reasonable or not. The standard assumes any jury ren­
dering a verdict not according to the law as interpreted
by a judge is unreasonable; tell that to all the slaves
freed unreasonably by Northern juries nullifying the
Fugitive Slave Act with their verdicts on a case-by-case
basis (Alschuler & Deiss, 1994).
In Salazar-Limon u. City ofHouston, 1 the U.S.
Supreme Court denied certiorari for a case
alleging the police exercised excessive force.

24
In a concurring opinion, Justice Alito stated:
“Every year the courts of appeals decide hun­
dreds of cases in which they must determine
whether thin evidence provided by a plaintiff
is just enough to survive a motion for sum­
mary judgment or not quite enough. The Su­
preme Court has stated that a judge can
decide whether summary judgment should be
granted by determining whether a reasonable
jury could decide for the nonmoving party.
The Supreme Court has never under­
taken to explain how a judge can make
this determination. (Thomas, 2018, empha­
sis added).
The importance of jury deliberation as opposed to
sole power and decision making of judges, research by
McCannon & Walker, (2016), McCannon, (2011) and
Schofield, (2005) acknowledged that Condorcet’s Jury
Theorem demonstrates small groups make better deci­
sions regarding the public good.
Even if the Supreme Court or the Eleventh Circuit
attempted to provide guidance on determining what a
reasonable jury could find, this task is impossible.
Judge Posner and Judge Cardozo have recognized that
each of us see from our own viewpoints, as much as we
may try to see from another’s viewpoint. See RICHARDA. POSNER, HOW JUDGES THINK 68 (2008)
(quoting BENJAMIN CARDOZO, THE NATURE JU­
DICIAL PROCESS 13 (1921) OF THE ... and “Fre­
quent Disagreement Among Judges on Whether a Case
Warrants Summary Judgment Indicates the Weakness

25
of the Reasonable Jury Standard” (Thomas, 2018,
Amicus Brief for Jefferson).
In respect to judges’ agreement on opinions, differ­
ent judges will come to different decisions regarding
reasonableness, proving it is untenable as a standard
of law being subjective, not objective. Dr. Suja Thomas
in her commentary on the reasonableness standard
notes in Scott v. Harris, Justice Scalia in the majority
opinion, believed no reasonable jury would find for the
plaintiff. In his dissent, Justice Stevens believed a rea­
sonable jury could find for the plaintiff (Thomas, 2014).
And Pfautz agrees with Chin on the genius of a jury
when three judges cannot agree on a fact for a trial.
Pfautz (2015) continues in quoting Judge Kopf speak­
ing about Scott asked:
“When a district judge, several 11th Circuit
judges, and one Supreme Court Justice con­
clude that a “reasonable jury” could find for
the plaintiff based upon a video, how might
the Seventh Amendment have vitality when
no jury will ever get that opportunity because
eight Justices viewing the same thing come to
a different factual conclusion?” (Pfautz, 2015,
foot note 19).
The reasonable jury standard as an unbiased, eq­
uitable objective legal standard is not a viable legal
concept. With no standard, there can be no rule de­
pendent upon it. Additionally, jury research of Kalven
and Ziesel’s Chicago Jury Project had two signifi­
cant findings. Findings concluded juries found a final
verdict in keeping with their initial vote before

26

deliberations 90% of the time. And that jury verdicts
agreed with what the judge believed to be the correct
verdict 78% of the time. The Chicago Jury Project then
became a catalyst that spurred more research into jury
behavior (Devine et al., 2001). Eisenberg replicated
Kalven and Ziesel’s (1966 research in the American
Jury Project) affirming them (Eisenberg, 2005). Kalven
and Ziesel’s research results remain foundational
(O’Sullivan et al., 2016). O’Sullivan also noted no is­
sues in transferability to real-world application due to
unethical research of Kalven and Ziesel, having rec­
orded live jury deliberations without the jury’s
knowledge, because the data remains the same even
with the unethical collection.
In 2008, a study by Dr. Kahan (Thomas, 2014 cit­
ing Kahan et al., 2008) showed over 100 research par­
ticipants video footage from Scott that four lower court
judges and the dissenting Justice Stevens found no
reasonable jury would find for the plaintiff in opposi­
tion to eight Justices. Kahan’s findings corroborated
the findings of Kalven and Ziesel and Eisenberg: that
75% of juries render verdicts along the Court’s deci­
sion in Scott agreeing deadly force was warranted. In
other words, 25% of juror/juries are unreasonable, de­
pending on which judge you get, it might be 75% of ju­
ries are unreasonable since judges often do not agree.
Kahan also noted jurors who fell in the 25%, who were
pro plaintiff were often of similar political, educational,
income, and ethnic demographics. This diversity in de­
mographic response to law and facts further under­
mines any notion of a standard of reasonableness

27

being attainable as there is no telling with any cer­
tainty which demographics will be represented on a
jury. Without a reasonableness standard, you cannot
employ Rule 56.
In this lengthy but relevant excerpt, Meier demon­
strates the differences between how a judge and jury
decided. These differences undergird the unreasona­
bleness of the reasonableness standard.
The reasonable jury standard implies that the
judge’s analysis at summary judgment essen­
tially replicates the jury’s analysis at trial. In
reality, however, the judge’s analysis at the
summary judgment stage is materially differ­
ent than the fact-finder’s analysis at trial. . .
Ultimately, the reasonable jury standard ob­
scures the fact that judges often grant sum­
mary judgment (usually against a plaintiff)
because the dearth of evidence on a material
fact means that insufficient confidence can be
had in any probability assessment as to that
material fact. Further, when the confidence
principle goes unidentified as the true basis
for a summary judgment, it suggests that
the judge has assumed a greater role in
assessing the probability question than
the “reasonable jury” standard permits. In re­
ality, the judge has simply used an analysis
that is not adequately captured by the reason­
able jury phrase. (Meier, 2014, p750-751 em­
phasis added)
The body of research generated from decades ex­
amining jury behavior (Devine et al., 2001; Bomstein

28

et al., 2017) has one thing in common; you can’t ever
predict what any jury will do. Whether it is 1%,
25%, or 50% of the time, there is no acceptable margin
of error in judge jury agreement that doesn’t necessi­
tate the removal of summary judgment from federal
rules because the reasonableness standard is severely
flawed. Judges analyze differently than juries do.
When a judge acts in lieu of a jury, the political aspect
of a jury (De Tocqueville, 1835; Van Dyke, 2017), the
checks and balances on implementation of the laws of
the land, and judges are unlawfully bypassed by sum­
mary judgment.
In reality, judges simply decide on their own based
on their experiences and legal viewpoint, which is sub­
jective and varies between judges and justices alike as
noted above in Scott, not just between different de­
mographics of jurors as seen in the Kalven and Ziesel,
Eisenberg, and Kahan studies spanning over 40 years
with results remaining consistent amidst many cul­
tural changes in the nation during this period. Some
may say the courts will be overwhelmed with small
cases where guilt seems obvious. Not true. The system
of plea-bargaining already works and serves as a suit­
able gatekeeper in many respects. The same applies to
an officer’s legal discretion to charge or not charge a
person depending on the situation or a Grand jury de­
ciding not to indict moonshiners from the local commu­
nity, who are patently guilty (Green, 2016).
Over twenty years ago, there were a few years I
was making bad decisions. I was treated very well by
multiple police officers, whom I respected then and

29
now, and when offered plea bargains instead of a trial,
I took one when I was innocent and some when I was
not because I believed as I was told that I would not
fair well at a trial. I didn’t like it, but it was the right
decision at the time. With one exception. I was charged
with a double felony handgun possession in Ocean
County New Jersey in 1998. Two spring operated, not
loaded, not wielded bee-bee guns were found in my car
during a search on a profiled traffic stop (my Latino
friend was driving since I was injured). Four adults
and my son in a car seat were in the car. Under the
circumstances, I told the officer the bee-bee guns were
mine when they were not to keep from having my son
taken into DCFS custody because the driver owned the
guns, but three of us could not drive (wife fear of driv­
ing, my injury, and my friend’s girlfriend had a sus­
pended license). I was offered a plea bargain by the
prosecution of one felony charge and probation, no
community service, no jail time, but I had no felonies
and wasn’t going to accept one, especially when I was
innocent. I was told if I go to trial, I will be convicted
and have consecutive 5-year sentences totaling 10
years. I talked to my wife, and we agreed to go to trial;
a scary decision, but what was left of my honor and
prospects of repairing my life and rejoining the mili­
tary someday would be destroyed with a felony convic­
tion of any sort. I do not know if summary judgment
was even a factor, my public defender never mentioned
it, and I did not know about it until the present case. I
was found not guilty by a jury. I was able to turn my
life around to what it is today as a result. I think now,
if summary judgment was in play, I had a real chance

30

of having it granted against me. Whether in a criminal
or civil case, I have faith injuries for justice and faith
in plea bargaining when appropriate since experienc­
ing both.
The 7th Circuit did not have the evidence I pre­
sented to it (Memos for Record describing the trail of
harassing and retaliatory actions throughout my or­
deal) properly cited, as I mistakenly thought it would
be read. Additionally, material disputes between the
Defendant and I over the interpretation of my memo
relating to my opposition to the discriminatory activity
which started it all, and showing causation is not disproven by my less than two years of ongoing events,
when even a four-year lapse in time is not proof retal­
iation did not occur Coates v. Dalton (1996); all disre­
garded by the District Court in this complex pro se
employment case by deciding on a technicality, which
should not have been done Marshall v. Knight et al.
(2005). I did not know how to appropriately show good
cause or cite evidence to the Circuit other than to state
I made an honest mistake before the District Court,
one I am not allowed to correct. Therefore, all pro se
should be allowed a chance to correct procedural errors
and have sample examples of citing evidence, so legal
inexperience does not become a barrier or arbitrary
qualifier denying them their right to trial by jury.

31
V.

Appropriate Interpretation of Rules Ena­
bling Act section 2707

Article VI of the U.S. Constitution states: This
Constitution, and the Laws of the United States which
shall be made in pursuance thereof; and all treaties,
made, or which shall be made, under the Authority of
the United States, shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding. The Sixth and
Seventh Amendments secure a citizen’s right to trial
by jury. The Fourteenth Amendment says: No State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
Since the Articles of the Constitution and subse­
quent Amendments are the supreme law of the land,
the Federal Congress does not have the authority to
pass laws overruling or undermining the rights and
privileges contained in them. Only through the ratifi­
cation process can the Constitution and Amendments
be altered in any way. Therefore, the Executive Branch
should not enforce a law, Congress cannot legislate a
law, and judges cannot create rules nor render rulings,
orders, or opinions on law denying or abridging guar­
anteed privileges such as the right to a trial by jury.

32

How then is there then a federal rule conditionally
abridging the right to a jury trial for any reason? There
are no conditions in the Constitution for obtaining a
trial by jury. There is already a suitable gatekeeping
mechanism in the judicial process, such as filing a com­
plaint that is acceptable to the court. A person is given
three chances (at least I was but are all pro se people
getting the same chances), which is reasonable, to ar­
ticulate a legally recognizable complaint. An accepta­
ble complaint should be all that is required to proceed
in a case to trial.
However, having an acceptable complaint is not
enough as the specter of summary judgment guards
the bridge leading to the right to a trial. Some prevail
against it and pass over the bridge, while others can­
not. Alexander Hamilton in the Federalist Papers
made the case that juries are the security against cor­
rupt judges and which in combination with the judici­
ary acts as double security keeping them both honest,
and the Anti-Federalists fears about judicial abuses
influenced the crafting of the Seventh Amendment
(Thomas, 2007, Virginia LR). Where then did the au­
thority to write such a rule as 56 come from? The initial
answer is the Rules Enabling Act of 1934. The actual
answer is that the Enabling Act does not grant the au­
thority wielded by Rule 56.
The Court’s view of the Seventh Amendment is
well documented: “here, we are dealing with a consti­
tutional provision which has in effect adopted the rules
of the common law, in respect of trial by jury, as these
rules existed in 1791”. And regarding rulemaking, “to

33

effectuate any change in these rules is not to deal with
the common law, qua common law, but to alter the Con­
stitution” (Thomas, 2007, Iowa LR). In Gundy (2018),
Justice Gorsuch’s dissenting opinion enumerates that
“Congress must set forth standards “sufficiently defi­
nite and precise to enable Congress, the courts, and the
public to ascertain”.
The Gundy majority opinion states:
Article I of the Constitution provides that
“[a] 11 legislative Powers herein granted shall
be vested in a Congress of the United States.”
§1. Based on that provision, this Court ex­
plained early on that Congress may not trans­
fer to another branch “powers which are
strictly and exclusively legislative.” Wayman
v. Southard, 10 Wheat. 1,42-43. But Congress
may confer substantial discretion on execu­
tive agencies to implement and enforce the
laws.
Justice Thomas Dissenting in Sessions v. Dimaya
(2017) states:
I agree that the Constitution prohibits Con­
gress from delegating core legislative power to
another branch. See Department of Transpor­
tation v. Association of American Railroads,
575 U.S.__ (2015) (AAR) (THOMAS, J., con­
curring in judgment) (slip op., at 3) (“Congress
improperly ‘delegates’ legislative power when
it authorizes an entity other than itself to
make a determination that requires an exer­
cise of legislative power”); accord, Whitman v.

34
American Trucking Assns., Inc., 531 U.S. 457,
487 (2001) (THOMAS, J., concurring)
Smoot cited from Fidelity-emphasis added-said:
‘It would seem a logical result of the argument of
plaintiff “in error that there was a constitutional right
to old forms of procedure, and yet it seems to be con­
ceded that Congress has power to change them, even
to the enactment of rule 73. The concession of that
power destroys the argument based on the Constitu­
tion, and whether Congress exercised the power di­
rectly or delegated it to the supreme court of the
District of Columbia can make no difference. And that
such power had been delegated to the supreme court of
the District was virtually decided in Smoot v. Rittenhouse {Fidelity)!
Virtually does not mean that anything is defini­
tively delegated. Instead, the judge ascribed delegation
where there was no explicit delegation of anything.
“Some Justices have argued that delegations by
Congress of power to affect the exercise of “fundamen­
tal freedoms” by citizens must be closely scrutinized to
require the exercise of a congressional judgment about
meaningful standards” United States v. Robel, (Justice
Brennan concurring).
So, it is established that Congress cannot delegate
its core powers. Congress cannot delegate a power it
does not possess. Congress does not have the power to
change, override, or undermine in whole or in part
any article or amendment of the Constitution. Does the

35

Rules Enabling Act delegate authority to the Judicial
Branch authority that Congress does not possess or
cannot delegate? Neither. The Act does not attempt
to authorize alteration or undermining or marginali­
zation of the right to a trial by jury; on the contrary,
it specifically separated and protected it. The Act has
been misinterpreted to give authority it does not, and
initially, the wording prohibits explicitly rules which
encroach upon the Seventh Amendment and trial by
jury.
The Act’s second sentence in 1976 from 1934 read
as follows: Such rules shall not abridge, enlarge or
modify any substantive right and shall preserve the
right of trial by jury as at common law and as declared
by the Seventh Amendment to the Constitution. (Bur­
bank, 1982).
The same Rules second sentence is still in force, as
documented by Carrington prior to the 1988 amend­
ment (Carrington, 1989). Carrington also noted that
the Supreme Court had not applied this sentence in
fifty years. Then a drastic change took place in the Act.
A change that indicated Rule 56 conditional marginal­
ization of the Constitutional right to a jury trial was
legal. The second sentence directly limiting the rulemaking power of the Judicial Branch to specifically
protect the right to a trial by jury was replaced in the
1988 amendment to the Act with the following:
(b) Such rules shall not abridge, enlarge, or mod­
ify any substantive right. All laws in conflict with such

36

rules shall be of no further force or effect after such
rules have taken effect” (Public Law, 1988).
Is it not suspicious that the specific protections
and prohibitions related to the Seventh Amendment
were removed, making the Act vague and open to var­
ious dangerous interpretations? Regardless of the Act’s
exact wording as it still stands today, any interpreta­
tion of it does not include the authority to delegate
power Congress itself does not possess. Therefore, with
or without the trial by jury protection in the original
wording of the Act; and the fact that no legislated law
or federal rule can alter the Common Law ties of the
Seventh Amendment to 1791 application, let alone re­
strict in any manner any part of the Constitution; Rule
56 is unconstitutional in its entirety having no author­
ity to be written or enforced.
The standard practice of the Court has been
to interpret the delegation narrowly so as to
avoid constitutional problems Kent v. Dulles,
357 U.S. 116 (1958). And the Second Circuit
remarked that summary judgment “is a dras­
tic device since its prophylactic function, when
exercised, cuts off a party’s right to present his
case to the jury’!’ Heyman (1975).
Summary judgment conditionally abridges the
rights of a citizen to a jury trial, acting as if it is a
Constitutional Amendment litmus test adding biased
criteria to decide whether a citizen has the right to
exercise their right to a jury trial. Even the supposed
utility of Rule 56, were it legal, renders it counter to
providing justice for litigants. A frivolous lawsuit will

37

most likely be stopped through a legal and reasonable
gatekeeper process of complaint filing or motions to
dismiss, not including summary judgment. To stream­
line a docket to convenience judges at the expense of
justice for citizens is unethical at best and immoral at
worst.
To Summarize: The Eleventh Circuit in Jefferson
erred in reasoning, as did the previous Court in Parklane concluding summary judgment was Constitu­
tional basing it on the Smoot to Fidelity to Parklane
faulty linkage and neglected the then-existing second
sentence in the Rules Enabling Act explicitly protect­
ing trial by jury. The Judicial and Legislative Branches
do not alone or together have the authority to change
or marginalize Constitutional rights through the Ena­
bling Act as an oversight or not in agreeing to Rule 56
upon review, only by a ratified amendment. Rule 56
should be ruled unconstitutional and stricken from
Federal Rules of Civil Procedure for illegally regulat­
ing access to and infringing directly on the right to a
trial by jury. I should be granted a jury trial as Sum­
mary Judgment is unconstitutional and should not be
granted against me. If the Court for some reason does
not determine summary judgment unconstitutional at
this time, then a second chance to resubmit my brief to
the District court in accordance with local rules should
be granted me as a pro se litigant. Pro Se should be
allowed the opportunity to correct procedural errors
nationwide. Clarification of conflicting opinions of
handling pro se are needed.

38

CONCLUSION
For the foregoing reason, the Court should grant a
writ of certiorari.
Respectfully submitted,
David H. Penny
734 E 1000 N
Buckley, Illinois 60918
(217) 377-6575
david .h. penny65@gmail. com
Pro Se Litigant
January 13, 2021

